No. ______
_________________
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DAYTON MICHAEL CRAMER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
ON PETITION FOR WRIT OF CERTIORARI TO THE ELEVENTH CIRCUIT
COURT OF APPEALS
__________________
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI
__________________

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
Florida Bar # 114227
2202-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
Email: ufferman@uffermanlaw.com
Counsel for the Petitioner

To the Honorable Clarence Thomas, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Eleventh Circuit:
Introduction
Pursuant to this Court’s Rule 13.5, the Petitioner, Dayton Michael Cramer,
respectfully requests a sixty-day extension of time within which to file a petition for
a writ of certiorari in this Court, to and including March 2, 2020.
Jurisdiction
The opinion of the Eleventh Circuit Court of Appeals affirming the Petitioner’s
conviction and sentence was entered on October 3, 2019. Unless extended, the time
within which to file a petition for a writ of certiorari would expire on January 2, 2020.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

A copy of

the opinion of the Eleventh Circuit Court of Appeals is included in the appendix to this
motion.
Argument
The issue in this case is whether the court of appeals erred by denying the
claims raised on direct appeal: 1) the district court erred by denying the Petitioner’s
motion for a judgment of acquittal, and 2) the district court erred in not dismissing the
charge against the Petitioner, which did not violate 18 U.S.C. § 2422(b).
Unfortunately undersigned counsel’s schedule requires him to seek an extension
of time in this case. In particular, during the next three months, undersigned counsel

2

will be attending two oral arguments before Florida appellate courts, six postconviction
evidentiary hearings before Florida circuit courts, and two committee meetings.1
Additionally, since the order of the Eleventh Circuit Court of Appeals affirming
the Petitioner’s conviction and sentence was entered, undersigned counsel participated
three postconviction evidentiary hearings before Florida circuit courts, three oral
arguments before Florida appellate courts, one juvenile resentencing hearing, and one
Florida Bar committee meeting.
Therefore, the Petitioner requests an extension of sixty days to file the petition
for a writ of certiorari. No party will be prejudiced by the granting of a sixty-day
extension in this case.
Accordingly, the Petitioner respectfully requests that an order be entered
extending the time to petition for writ of certiorari by sixty days.
1

Undersigned counsel will attend a committee meeting on December 13, 2019, for The
Florida Bar Criminal Law Certification Committee, for which he is the chair of the
committee this year. Undersigned counsel will appear at an oral argument on January
14, 2020, for Kevin John Butler v. State of Florida, case number 1D18-2848, pending
in the Florida First District Court of Appeal. Finally, undersigned counsel will be
appearing at the following postconviction evidentiary hearings: 1) December 10, 2019,
in State v. Tate, case number 2011-CF-3552, pending before the Florida Second
Judicial Circuit Court (Leon County); 2) December 17, 2019, in State v. Pike, case
number 2009-CF-744, pending before the Florida Twentieth Judicial Circuit Court
(Charlotte County); 3) January 7, 2020, in State v. Rollins, case number 2004-CF-162,
pending before the Florida Second Judicial Circuit Court (Leon County); 4) January 17,
2020, in State v. Nierenberg, case number 2010-CF-11363, pending before the Florida
Fourth Judicial Circuit Court (Duval County); 5) January 31, 2020, in State v. Eckert,
case number 2012-CF-2967, pending in the Florida Eighteenth Judicial Circuit Court
(Seminole County); and, 6) February 21, 2020, in State v. Lambert, case number 2007CF-6925, pending in the Florida Twelfth Judicial Circuit Court (Sarasota County).

3

Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
Florida Bar # 114227
2202-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
Email: ufferman@uffermanlaw.com
Counsel for the Petitioner

4

CERTIFICATE OF SERVICE
I, Michael Ufferman, a member of the Bar of this Court, hereby certify that on
the 3rd day of December, 2019, a copy of this Application For Extension of Time To File
A Petition For A Writ Of Certiorari in the above-entitled case was mailed, first class
postage prepaid, to the United States Attorney’s Office, 111 North Adams Street,
Fourth Floor, Tallahassee, Florida 32301 (counsel for the Respondent herein). I
further certify that all parties required to be served have been served.

/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
Florida Bar # 114227
2202-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
Email: ufferman@uffermanlaw.com
Counsel for the Petitioner

5

